U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Anthony Jerome Billings v. United States of America,
S.Ct. No. 20-7101

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 4,
2021, and placed on the docket on February 10, 2021. The government’s response is due on
March 12, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7101
BILLINGS, ANTHONY JEROME
USA

SCOTT G. BERRY
450 S. AUSTRAILIAN AVE
SUITE 500
WEST PALM BEACH, FL 33401

